No. 20-414

In the Supreme Court of the United States
Rovi Guides, Inc.,

Petitioner,
v.
Comcast Cable Communications, LLC;
United States of America,

Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I declare that the Reply Brief for
the Petitioner Rovi Guides, Inc. contains 852 words, excluding parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 13th day of November 2020.
/s/ Michael E. Joffre
MICHAEL E. JOFFRE
STERNE KESSLER GOLDSTEIN & FOX, PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202.371.2600

Counsel for Petitioner Rovi Guides, Inc.

